No. 20-1824

In the

Supreme Court of the United States
__________________
VINCENT LUCAS,
Petitioner,
v.
TRICIA MOORE, MARCIA PHELPS,
LICKING COUNTY, OHIO, AND
THE CITY OF NEWARK, OHIO,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________
BRIEF IN OPPOSITION
__________________
DANIEL T. DOWNEY (0063753)
Counsel of Record
FISHEL DOWNEY ALBRECHT &
RIEPENHOFF LLP
7775 Walton Parkway, Suite 200
New Albany, Ohio 43054
(614) 221-1216
ddowney@fisheldowney.com
Counsel for Respondents

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether compelling reasons exist to exercise
jurisdiction on writ of certiorari where Petitioner
raises only an alleged conflict between the decision
of the United States Court of Appeals for the Sixth
Circuit and the Seventh Circuit in the analysis of
permissible uses pursuant to 18 U.S.C. § 2721(b)(1)
and (4), a conflict which does not actually exist and
rests solely on the application of the law.
2. Whether the United States Court of Appeals for the
Sixth Circuit correctly concluded that Respondents
did not violate the Driver’s Privacy Protection Act of
1994 (“DPPA”), 18 U.S.C. § 2721 (“DPPA”) when it
held that the disclosure of information was a
permissible use pursuant to 18 U.S.C. § 2721(b)(1)
and (4).

ii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, DefendantAppellee Licking County, Ohio states that it has no
disclosures to make concerning publicly owned
corporations’ financial interests or participation as
parties in this action.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
RELEVANT STATUTORY PROVISION . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
Procedural History . . . . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENTS FOR DENYING CERTIORARI . . . . 4
There is no compelling reason to exercise
jurisdiction on writ of certiorari . . . . . . . . . . . . . . 5
The decision below was correctly decided . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

iv
TABLE OF AUTHORITIES
CASES
Allapattah Servs. v. Exxon Corp.,
362 F.3d 739 (11th Cir. 2004). . . . . . . . . . . . . . . . 1
Hamilton-Brown Shoe Co. v. Wolf Bros. & Co.,
240 U.S. 251 (1916). . . . . . . . . . . . . . . . . . . . . . 4, 5
Hubbard v. United States,
514 U.S. 695 (1995). . . . . . . . . . . . . . . . . . . . . . 1, 4
Senne v. Village of Palatine,
695 F.3d 597 (7th Cir. 2012). . . . . . . . . . . . . . . 5, 6
STATUTES
18 U.S.C. § 2721 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
18 U.S.C. § 2721(b)(1) . . . . . . . . . . . . . . . . . . . passim
18 U.S.C. § 2721(b)(4) . . . . . . . . . . . . . . . . i, 2, 3, 4, 6
18 U.S.C. § 2721-2725 . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 7

1
RELEVANT STATUTORY PROVISION
The Driver’s Privacy Protection Act of 1994
(“DPPA”), 18 U.S.C. § 2721-2725.
INTRODUCTION
None of the three questions presented by Petitioner
offer a compelling reason to grant review of the lower
court decisions in this matter. Petitioner Driver’s
Privacy Protection Act of 1994 (“DPPA”), 18 U.S.C.
§ 2721 between the United States Court of Appeals for
the Sixth Circuit in this case and the application of
permissible use by the United States Court of Appeals
for the Seventh Circuit.
The conflict allegedly created by the Sixth Circuit’s
decision in Case No. 20-1824 does not satisfy the “high
degree of selectivity [ ] enjoined upon [this Court]” in
granting a petition for a writ of certiorari because the
alleged conflict is not “with a decision of another court
of appeals.” Hubbard v. United States, 514 U.S. 695,
720 (1995) (Roberts, C.J., dissenting); see also
Allapattah Servs. v. Exxon Corp., 362 F.3d 739, 752
(11th Cir. 2004) (“Of course, the mere existence of even
a gaping interpretive chasm has never been sufficient
in itself to assure of grant of certiorari from the
Supreme Court.”). Given the number of petitions for
certiorari received every Term, the requirement that
the alleged conflict be with another court of appeals “is
a necessary concomitant of the limited capacity in this
Court.” Id. The rule applied by the circuit courts here
is the same, which characterizes this case in the “rarely
granted” category pursuant to United States Supreme
Court Rule 10, “[A] petition for writ of certiorari is

2
rarely granted when the asserted error consists of
…misapplication of a properly stated rule of law.”
United States Supreme Court Rule 10 (emphasis
added). Petitioner requests that this Court spend
judicial time and resources to settle an application
difference between the circuits, which is the type of
Petition that is rarely granted by this court for good
reason. The decision below was correctly decided and
does not call for Supreme Court review.
The District Court concluded that all defendants
were entitled to summary judgment, for various
reasons, but the primary of which was that the
underlying allegation of a violation of the DPPA 18
U.S.C. § 2721 simply did not occur, as the disclosure in
question was permissible under 18 U.S.C. § 2721(b)(1)
and (4). Lucas v. Moore, 2019 U.S. Dist. LEXIS 233150
at *6 (S.D. OH March 21, 2019) The information
disclosed was disclosed pursuant to the opening of a
judicial case file for trial, and as a response to
propounded discovery from Petitioner to Respondent.
Id at *6-7. The disclosure of this information was in the
normal course of the county’s court system and
electronic record keeping.
The Sixth Circuit, in its de novo review, agreed with
the district court that dismissal, summary judgment,
and a denial of the Motion to Amend the Complaint
were proper. Lucas v. Moore, 2021 U.S. App. LEXIS
1587 (6th Cir. January 20, 2021) Ultimately, the Sixth
Circuit correctly concluded that the disclosure was
permissible pursuant to the DPPA 18 U.S.C.
§ 2721(b)(1) and (4). As such, there was no violation
that required the court to intercede.

3
The Petition for a Writ of Certiorari should thus be
denied.
STATEMENT OF THE CASE
Important to the disposition of Petitioner’s request
are the following facts: in July 2014 Petitioner was
charged with a minor misdemeanor traffic offense; he
contested the violation and the case moved to trial; as
part of the litigation documents, Respondent Tricia
Moore prepared discovery responses to discovery
propounded upon the prosecution by Petitioner;
Moore’s response was filed with the court and appears
on the public docket; the response included Petitioner’s
personal information; years later, Petitioner discovered
some of his information was available on the public
website, this case followed.
Procedural History
In launching his case in the United States District
Court for the Southern District of Ohio, Petitioner filed
his original complaint naming Respondents.
The district court, in ruling on Respondent’s motion
applied the plain language of the DPPA 18 U.S.C.
§ 2721(b)(1) and (4), holding that the disclosure of the
Petitioner’s information fell squarely in the plain
language of a permissible disclosure pursuant to the
statute.
Petitioner pursued eight enumerated “issues” in his
appeal to the Sixth Circuit. Although enumerated as
eight separate and distinct issues, Petitioner’s appeal
essentially boiled down to two issues: 1) he does not
believe the disclosure of his information was

4
permissible pursuant to the DPPA; and 2) he believes
the Sixth Circuit should apply a balancing test for
permissible disclosure similar to that used in a single
Seventh Circuit case.
The Sixth Circuit, in its de novo review, agreed with
the district court’s grant of summary judgment to
Respondent, holding that the District Court had
properly held that the disclosure of Petitioner’s
personal information fell within the plain language of
18 U.S.C. § 2721(b)(1) and (4). The issues identified in
the Petition for a Writ of Certiorari have neither merit
nor the “peculiar gravity and general importance”
needed for this Court’s review; therefore, the Petition
for a Writ of Certiorari should be denied. HamiltonBrown Shoe Co. v. Wolf Bros. & Co., 240 U.S. 251, 258
(1916); see also Hubbard, 514 at 720.
ARGUMENTS FOR DENYING CERTIORARI
The Petition for a Writ of Certiorari should be
denied because although Petitioner identified a division
between the United States Sixth and Seventh Circuit
courts of appeals, the application of the rule is the only
issue, not the misstatement of the law. Supreme Court
Rule 10 states specifically that, “[a] petition for a writ
of certiorari is rarely granted when the asserted error
consists of erroneous factual findings or the
misapplication of a properly stated rule of law.”
Petitioner, in this writ, cites only the disagreement
between the Sixth and Seventh Circuit in the
application of a balancing test. The alleged division
between the circuits is not of the type that requires
Supreme Court intervention.

5
Rule 10(a) The decision below was correctly decided
and does not call for this Court’s review. Given that the
“jurisdiction to review the judgments and decrees of the
Circuit Court of Appeals by certiorari . . . is a
jurisdiction to be exercised sparingly, and only in cases
of peculiar gravity and general importance, or in order
to secure uniformity of decision,” Petitioner’s request
for certiorari should be denied. Hamilton-Brown, 240
U.S. at 258.
There is no compelling reason to exercise
jurisdiction on writ of certiorari.
Petitioner does not meet the standards embodied in
United States Supreme Court Rule 10 to warrant a
grant of certiorari. Although here it appears at first
glance that the Seventh and Sixth Circuits are at odds
in the application of permissible use of the DPPA, that
is an oversimplification of the issue. The Seventh
Circuit, in the case cited by Petitioner, does apply a
balancing test to determine when certain disclosures
are permissible. However, the Seventh Circuit case is
distinguishable and involved the disclosure of personal
information on a windshield of a vehicle by way of the
issuance of a ticket. In that case, the balancing test
was applied, because the disclosure was found by that
Court to not be fully within the permissible use
purpose of the statute as it was not, “[f]or use by
a[]…law enforcement agency” 18 U.S.C. § 2721(b)(1).
Senne v. Village of Palatine, 695 F.3d 597, 606 (7th Cir.
2012)(emphasis in original). Here, Petitioner’s
information was disclosed pursuant to two separate and
distinct permissible uses, both by the prosecutor and
for litigation.

6
In fact, the Southern District directly addressed this
issue in its decision, citing to the Seventh Circuit case,
Senne v. Vill. Of Palatine, III., 695 F.3d 597, 606 n. 12
(7th Cir. 2012), and illustrating that even the Seventh
Circuit does not impose “best practices” for case
management where the statute does not specifically
regulate the conduct. Lucas v. Moore, 412 F. Supp.3d
749, 755-756 (S.D. Ohio 2019). Petitioner simply
disagrees here with the County’s use of its electronic
docketing system, this is an issue of best practice, not
an issue of statutory violation. Therefore, the Petition
for a Writ of Certiorari should be denied.
The decision below was correctly decided.
The decision below does not warrant Supreme Court
review because it was correctly decided. The disclosed
information was found by the District Court and the
Sixth Circuit to be disclosed within the permissible
disclosure parameters of the DPPA 18 U.S.C.
§ 2721(b)(1) and (4), Petitioner’s wish for a Seventh
Circuit balancing test aside, the lower courts have held
that the plain language of the state allows for this type
of disclosure as permissible. Petitioner seeks the
imposition of best practices rather than the application
of law, neither the Southern District of Ohio or the
Sixth Circuit were willing to do so, as the same is not
required by the DPPA. The Petition for a Writ of
Certiorari should be denied.
CONCLUSION
Respondent respectfully requests that the Petition
for a Writ of Certiorari be denied. The sole identified
conflict allegedly presented by the decision below

7
involves only a case within the Seven Circuit and apply
only to the application of “permissible” and that
analysis thereof. Therefore, Petitioner’s alleged conflict
is not sufficient pursuant to United States Supreme
Court Rule 10. Because the decision below was
correctly decided, in accordance with controlling case
law, there is no departure from the accepted and usual
course of judicial proceedings, and the Petition for a
Writ of Certiorari should be denied.
Respectfully submitted,
DANIEL T. DOWNEY (0063753)
Counsel of Record
FISHEL DOWNEY ALBRECHT &
RIEPENHOFF LLP
7775 Walton Parkway, Suite 200
New Albany, Ohio 43054
(614) 221-1216
ddowney@fisheldowney.com
Counsel for Respondents

